                       Office of Inspector General



EMBARGOED
For Release on
                       Testimony
Delivery Expected at
2 p.m. Wednesday,
May 16, 2012
                       Before the Committee on Financial Services
                       Subcommittee on Oversight and Investigations
                       U.S. House of Representatives




                       Hearing on Oversight of the FDIC’s
                       Structured Transaction Program




                       Statement of Jon T. Rymer
                       Inspector General
                       Federal Deposit Insurance Corporation
                                Statement of Jon T. Rymer
                 Inspector General, Federal Deposit Insurance Corporation
                                       May 16, 2012

                            House Financial Services Committee
                        Subcommittee on Oversight and Investigations


Chairman Neugebauer and Members of the Subcommittee:

Thank you for your interest in the work performed by the Office of Inspector General (OIG) of
the Federal Deposit Insurance Corporation (FDIC) relating to the Corporation’s structured asset
sales program. The FDIC uses structured asset sale transactions as a part of a broader resolution
strategy for the assets of failed financial institutions.

The OIG is an independent office within the FDIC, established to conduct audits and
investigations to prevent and detect waste, fraud, and abuse relating to the programs and
operations of the FDIC, and to improve the efficiency and effectiveness of those programs and
operations. I was appointed as the Inspector General of the FDIC by President Bush, and
confirmed by the Senate in June 2006.

The OIG conducts audits that address FDIC programs and operations. Some of these audits are
required by law; others are initiated based on our assessment of various risks confronting the
FDIC. These audits assess such things as program effectiveness, adequacy of internal controls,
and compliance with statutory requirements and corporate policies and procedures. We perform
our work using internally available resources, supplemented by contracts with independent
accounting firms when expertise in a particular area is needed or when internal resources are not
available. Our work, as well as that of our contractors, is performed in accordance with
Government Auditing Standards.

During the current crisis, the OIG has issued nearly 100 reviews of failed financial institutions.
These reviews, pursuant to statute, describe the events that contributed to the institutions’
failures and the FDIC’s supervision of those failed institutions. While we will continue to
review each failure of an FDIC-supervised institution, our approach to that work evolved to
taking a more comprehensive view of common characteristics and trends. We communicated
those trends to FDIC management, and in response, the FDIC undertook a number of initiatives
to enhance the supervision program.

In early 2010, we began to focus our audit attention on the Corporation’s rapidly growing
resolution and receivership management activities, including such risk-sharing arrangements as
shared loss agreements (SLA) and structured asset sale transactions. The FDIC’s financial risk
exposure pertaining to these risk-sharing arrangements is significant, and we designed our audits
to assess compliance with the arrangements and the internal controls that the FDIC has
established and implemented to protect the interests of the Deposit Insurance Fund (DIF) in these
arrangements.




                                                 1
I am pleased to discuss the results of our work. As requested in your invitation to testify, I will
be describing the findings and recommendations of my office’s two completed audits of
structured asset sale transactions; the scope and methodology of my office’s ongoing work on
these types of transactions; and, to the extent possible, our review of the complaints filed by
borrowers impacted by these transactions. In addition, I will briefly discuss our planned work in
this area. Before I begin describing the OIG’s work, I would like to discuss, at a high level, the
FDIC’s resolution process and the tools that it has been using during the financial crisis.

The FDIC’s Resolution of Failed Banks

FDIC-insured financial institutions can fail for a number of reasons, including a lack of capital or
liquidity, poor management, or fraud. When an institution fails, the FDIC serves as the receiver
for the institution’s assets and liabilities. Since January 1, 2008, the FDIC has been appointed as
receiver for 437 failed institutions, with total assets at inception in excess of $670 billion.

As required by the Federal Deposit Insurance Corporation Improvement Act of 1991, the FDIC
must use the least costly alternative when it resolves a failed institution. Specifically, the law
requires the FDIC to maximize the net present value return from the sale or disposition of assets
of a failed institution and to minimize the amount of loss realized in the resolution of the
institution. To fund the cost of resolutions and pay insured depositors when a bank fails, the
FDIC maintains the DIF, which has experienced an estimated loss of $88 billion as a result of
these 437 failures.

In resolving failed institutions, the FDIC markets failing institutions to all interested and
qualified bidders, offering multiple alternative resolution structures. The FDIC’s preferred
approach is to sell all or a part of the failing institution’s assets to an open financial institution
that also assumes the failed institution’s deposit liabilities. To incentivize the acquiring
institution to take on some of the assets of the failed institution, the FDIC may enter into an SLA,
a risk-sharing arrangement discussed below.

Any remaining unsold assets become part of the receivership. The FDIC may later market and
sell those residual assets to qualified purchasers through a variety of means, including a
structured asset sale transaction. This type of risk-sharing arrangement is also discussed below.

       Shared Loss Agreements

An SLA, which is part of a purchase and assumption agreement with an acquiring institution,
includes provisions under which the FDIC agrees to absorb a portion of the losses experienced
by an acquiring institution on a specified pool of assets. While the FDIC generally absorbs
80 percent of certain losses, in some SLAs during the crisis, the FDIC agreed to absorb up to
95 percent of certain losses. As of March 31, 2012, the FDIC reported that it had entered into
285 SLAs with an original principal balance of $212.7 billion in assets.

Given the number of SLAs and the associated risks to the DIF, we initially identified individual,
large SLA transactions that, in our judgment, presented significant financial risk to the FDIC,
and from which we believed we could derive lessons that would help management to develop


                                                  2
and improve controls. We conducted seven audits of individual SLAs, resulting in 93
recommendations, of which numerous recommendations related to the establishment of program
level controls. With the development by FDIC management of more robust internal control
structures at the transaction level, we later shifted the focus of our work with regard to these
agreements to the FDIC’s controls at a higher program level. This approach is consistent with
the one we undertook for our reviews of failed institutions—that is, a more individual focus
followed by a more global view of trends.

       Structured Asset Sale Transactions

Not all assets from the failed institutions are sold to acquiring institutions. These residual assets
consist largely of distressed and non-performing single-family and commercial real estate loans
and real property that pass into and are held in FDIC receiverships. It is the FDIC’s objective to
return these assets to the private sector as promptly as possible, while maximizing the net present
value return from the sale and minimizing loss to the DIF, consistent with the FDIC’s statutory
obligations.

The FDIC utilizes multiple vehicles to sell these assets, among which are structured asset sale
transactions. Structured asset sale transactions involve pools of assets from one or more FDIC
receiverships. The FDIC sells or contributes assets to a limited liability company (LLC) formed
by the FDIC as receiver. These transactions are competitively bid to prequalified purchasers.
The receiver then sells an interest in the LLC to a private third-party, which manages the LLC.
The receiver retains either an equity interest in the LLC or a participation interest in the net cash
collected through the servicing and liquidation of the LLC’s assets. Once ownership of the
assets is conveyed to the LLC, control over the LLC is passed to the private third-party.

The FDIC, acting as receiver for failed banks, reported that it has consummated 32 structured
sale transactions involving 42,314 assets with a total unpaid principal balance of approximately
$25.5 billion, as of April 25, 2012. My testimony today addresses the work my office has
completed on two of these structured asset sale transactions and describes the scope and
methodology of our ongoing audit of two other such transactions.

Completed OIG Audits of Structured Asset Sale Transactions

The OIG has completed performance audits of two structured asset sale transactions that we
selected based on their size and the types of assets involved. The first audit was of ANB
Venture, LLC (ANB). ANB involved 1,112 individual assets with an unpaid principal balance at
closing of $1.167 billion. The Managing Member of ANB is Kingston Management Services,
LLC. We issued a report on this audit in November 2010 and discussed its findings in our
semiannual report to the Congress, for the period October 1, 2010 through March 31, 2011.

The second audit my office performed on a structured asset sale transaction was of Corus
Construction Venture, LLC (Corus). Corus involved 101 individual assets with an unpaid
principal balance at closing of $4.4 billion, and contained an advance funding mechanism of up
to $1.15 billion to fund the construction of incomplete buildings and provide other asset-related
working capital. The Managing Member of Corus is ST Residential. We issued a report on this


                                                  3
audit in April 2012, and summarized its results in an executive summary posted on our public
Web site.

My office contracted with CliftonLarsonAllen LLP to conduct the audits of ANB and Corus.
The objectives of the audits were to assess compliance with the structured asset sale agreements,
and to assess the FDIC’s monitoring of the agreements. Specifically, to assess compliance, we:

       reviewed the terms and conditions of the structured asset sale agreements;
       tested the completeness and accuracy of the initial recording of the assets on the books
         and records of the LLC and the monthly financial reports submitted to the FDIC
         (including management fees and servicing expenses reported by the Managing
         Member);
       determined whether the Managing Member employed “customary and usual standards
         of practice” with respect to managing and liquidating assets; and
       reviewed the allocation of cash flows for compliance with the agreements.

In assessing the FDIC’s monitoring of these transactions, we:

       reviewed the FDIC’s policies, procedures, and guidance pertaining to structured asset
         sale transactions;
       interviewed legal and resolutions personnel responsible for negotiating and overseeing
         the transactions; and
       reviewed the work of FDIC contractors engaged by management to perform quality
         control services.

We concluded that ANB, Corus, and their respective Managing Members complied with certain
provisions of the structured asset sale agreements, and that the FDIC had implemented certain
controls for monitoring the transactions. We also noted that the FDIC had planned or was in the
process of implementing significant control improvements at the time of our audits. However,
our audits identified a number of control deficiencies involving both compliance and monitoring
that warranted FDIC management’s attention.

With respect to compliance with the agreements, both reports included questioned costs relating
to servicing expenses and management fees. In the case of ANB, questioned costs of $634,412
consisted primarily of expenses incurred by the LLC that were inappropriately treated as
liquidation costs instead of servicing costs covered by the management fee. In addition,
questioned costs included management fees charged on assets that had no value but that had not
been written-off by the Managing Member. The report also noted that the FDIC could
prospectively achieve an estimated $3.1 million in funds put to better use by addressing issues
involving ANB’s accounting practices for servicing costs paid to contractors and for worthless
assets. The Corus report included $6.3 million in questioned costs, consisting primarily of
unallowable servicing costs, such as professional services provided by real estate development
firms and travel, meals, and entertainment expenses that were prohibited under the terms of the
structured asset sale agreement.


                                                4
Both audit reports, particularly the report on Corus, found that the policies and procedures used
by the Managing Members to service and liquidate the LLC’s assets were not consistent with
customary and usual standards of practice. The reports also noted that loan servicing practices
were not compliant in certain key respects with the servicing standards defined in the
agreements. We also concluded that ANB and Corus did not implement customary and usual
standards of practice for safeguarding sensitive, personally identifiable information.

With regard to the Corus audit, we determined that the Managing Member for Corus received
significant management fees pertaining to nonaccrual and capitalized interest. In the experience
of CliftonLarsonAllen, who performed this work on our behalf, paying such fees is not a
customary or usual practice. However, the terms of the agreement were not clear on this matter.
Because of this lack of clarity, the fees were not questioned, but we recommended that the FDIC
review the matter further and provide additional clarification regarding the treatment of
nonaccrual or capitalized interest in future structured asset sale agreements.

In the ANB audit, we determined that the Managing Member of ANB did not maintain sufficient
documentation regarding its asset disposition strategies, and that for more than a year, the
Managing Member did not have ample accounting staff to ensure proper separation of duties
when authorizing, recording, reconciling, and reviewing accounting entries and expenses.

Based in large measure on these compliance-related findings, we determined that the FDIC’s
controls for monitoring structured asset sales needed improvement, particularly in the areas of
policies, procedures, and guidance, and compliance monitoring program controls and practices.
During or subsequent to our field work on the Corus audit, the FDIC advised us that it had either
established or planned a number of control improvements related to its structured asset sale
transactions. Such improvements included, among other things, issuing policies and procedures
for monitoring structured asset sale transactions, engaging compliance monitoring contractors to
perform periodic compliance reviews of LLCs and Managing Members, assigning additional
resources for monitoring, and beginning a process for quarterly reporting to the FDIC’s Audit
Committee, an FDIC Board–level committee.

To summarize, the ANB report contained 10 findings and 24 recommendations. According to
the FDIC, actions had been taken to address all of these recommendations, as of October 2011.
The Corus report contained 7 findings and 10 recommendations. Corrective actions for all of
these recommendations are expected to be completed by September 30, 2012.

Ongoing Work Relating to Rialto Structured Asset Sale Transactions

We are presently conducting an audit of two structured asset sale transactions, both of which are
being managed by Rialto Capital Management, LLC (Rialto). The first transaction involves
5,166 residual assets with an unpaid principal balance of $2.3 billion. The majority of these
assets pertain to residential acquisition, development, and construction (ADC) projects. The
second transaction involves 345 residual assets (primarily commercial ADC projects) with an
unpaid principal balance of $799 million.




                                                5
This audit was requested by FDIC management on October 13, 2011, based on inquiries or
complaints that the FDIC had received concerning the transactions. As of April 30, 2012, the
FDIC reported that it had received a total of 57 inquiries or complaints associated with
approximately 65 loans, from members of the Congress, the public, or the media. The inquiries
and complaints dealt with Rialto’s aggressiveness in pursuing balances owed on the loans; an
unwillingness to compromise with borrowers; Rialto’s treatment of the borrowers or guarantors;
the FDIC’s handling of the loans prior to their transfer to Rialto; the servicing of the loans by the
loan servicer engaged by Rialto; and other general inquiries regarding Rialto’s operations.

The objectives of the Rialto audit include the same two objectives of the ANB and Corus audits,
namely to assess compliance with the structured asset sale agreements and to assess the FDIC’s
monitoring of the agreements. In addition, we will assess the FDIC’s bidding and selection
process, and the terms and conditions of the structured asset sale agreements themselves. Based
on the nature of some of the inquiries and complaints pertaining to these transactions, we placed
particular emphasis on the Managing Member’s controls over transactions with affiliates in
designing our audit procedures for this audit. We also selected a representative sample of assets
that were the subject of the inquiries and complaints of which we were aware at the time we
initiated our work.

Field work for this audit is scheduled to be completed in June 2012. We plan to issue a draft
report in July, and a final report incorporating FDIC management’s comments will be issued at
the end of August 2012. Consistent with our practices, the final report will not be publicly
available, but the report’s Executive Summary will be posted on our Web site.

Audit Work Going Forward

We intend to continue audits of individual SLA and structured asset sale transactions going
forward because of the dollar value of the transactions and to provide a deterrent effect as it
relates to the risk of fraud. However, we also anticipate a shift in the focus of our work
regarding structured asset sale transactions. That is, we have not yet assessed the effectiveness
of all of the control improvements we recommended for that program and that the FDIC has
advised it has implemented. As the structured asset sale program matures and as resources
permit, we plan to elevate our focus to a program-level review that assesses overall monitoring
and oversight controls. Such an approach is consistent with our earlier work examining
institution failures and our more recent review of the SLA program. Upon completing such a
review, as a next step, we are considering taking a broad, comparative look at the various
resolution strategies that the FDIC has employed during the crisis in order to assist the
Corporation in carrying out future resolution and receivership activities.

                                              *****

This concludes my prepared statement. Thank you for the opportunity to discuss our work in
these areas. I am prepared to answer any questions that you may have.




                                                  6
